<html>
<title> - OVERSIGHT OF THE U.S. ARMY CORPS OF ENGINEERS' MANAGEMENT OF THE SPRING 2019 MISSOURI RIVER BASIN FLOODING</title>
<body><pre>[Senate Hearing 116-88]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 116-88
 
OVERSIGHT OF THE U.S. ARMY CORPS OF ENGINEERS' MANAGEMENT OF THE SPRING 
                   2019 MISSOURI RIVER BASIN FLOODING

=======================================================================

                             FIELD HEARING

                               before the

 SUBCOMMITTEE ON SUPERFUND, WASTE MANAGEMENT, AND REGULATORY OVERSIGHT

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                 AUGUST 28, 2019--NORTH SIOUX CITY, SD

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                              ______
 
               U.S. GOVERNMENT PUBLISHING OFFICE 
 38-366 PDF              WASHINGTON : 2019
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                              ----------                              

             Subcommittee on Superfund, Waste Management, 
                        and Regulatory Oversight

                  MIKE ROUNDS, South Dakota, Chairman
JAMES M. INHOFE, Oklahoma            CORY A. BOOKER, New Jersey, 
RICHARD SHELBY, Alabama                  Ranking Member
JONI ERNST, Iowa                     KIRSTEN GILLIBRAND, New York
JOHN BARRASSO, Wyoming (ex officio)  EDWARD J. MARKEY, Massachusetts
                                     THOMAS R. CARPER, Delaware (ex 
                                         officio)
                                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            AUGUST 28, 2019
                           OPENING STATEMENT

Rounds, Hon. Mike, U.S. Senator from the State of South Dakota...     1

                               WITNESSES

Helmlinger, Brigadier General D. Peter, Northwest Division 
  Commander, U.S. Army Corps of Engineers........................     3
    Prepared statement...........................................     6
Remus, John, Chief, Missouri River Basin Water Management 
  Division, U.S. Army Corps of Engineers.........................    13

                          ADDITIONAL MATERIAL

U.S. Army Corps of Engineers Omaha District Levee Breach Status 
  and detail, updated August 21, 2019............................    33
U.S. Army Corps of Engineers 2019 Missouri River Flood Event--
  Request for Assistance.........................................    35
Missouri River Basin Regulated Watersheds........................    36
Communication: We Each Have a Role...............................    37


OVERSIGHT OF THE U.S. ARMY CORPS OF ENGINEERS' MANAGEMENT OF THE SPRING 
                   2019 MISSOURI RIVER BASIN FLOODING

                              ----------                              


                       WEDNESDAY, AUGUST 28, 2019

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Superfund, Waste Management, 
                                  and Regulatory Oversight,
                                              North Sioux City, SD.
    The Subcommittee met, pursuant to notice, at 2:00 p.m. at 
City Hall, 504 River Drive, North Sioux City, SD, Hon. Mike 
Rounds (Chairman of the Subcommittee) presiding.

            OPENING STATEMENT OF HON. MIKE ROUNDS, 
          U.S. SENATOR FROM THE STATE OF SOUTH DAKOTA

    Senator Rounds. Well, good afternoon. We'll call this 
Subcommittee hearing to order.
    Ladies and gentlemen, this spring, heavy rain and rapid 
snowmelt across the Midwest produced significant flooding along 
the Middle and Lower Missouri River Basin. The latest, August 
1st, 2019, runoff projections from the Army Corps of Engineers 
expect 2019 to be the second highest runoff year on record with 
almost 53 million acre-feet of runoff.
    While the total impact and damage assessments are still 
being conducted, a USDA report has asserted that agricultural 
producers were not able to plant crops on more than 19.4 
million acres in 2019, the most prevented plant acres reported 
since USDA's Farm Service Agency began releasing the report 
over a decade ago.
    We certainly hope there are not many more wet years quite 
as significant as this one; however, when wet years do occur, 
we need to have the ability to manage them.
    Unfortunately, years like 2019 are becoming more frequent, 
near-record levels have occurred 3 out of the last 9 years. 
During periods of extreme weather conditions, the Corps' 
management of the Missouri River plays a critical role in 
mitigating damage. We believe this is best achieved by 
recognizing trends, making accurate projections, and reacting 
accordingly.
    The Senate Environment and Public Works Committee has the 
important responsibility to maintain oversight of the U.S. Army 
Corps of Engineers' Civil Works program, which includes 
management of the Missouri River Basin. Today's Subcommittee 
field hearing is an opportunity to hear directly from the 
leaders of the Army Corps' Northwest Division on the 
decisionmaking process used to manage waterflows along the 
Missouri River in light of the flooding in 2019 in the middle 
Basin--the middle portion of the Basin.
    The Corps of Engineers manages the Missouri River Basin 
Mainstem Reservoir System, which includes six dams and 
reservoirs in Montana, North Dakota, and South Dakota. These 
six reservoirs have a combined maximum capacity of 72.4 million 
acre-feet in controls runoff, more approximately, half of the 
Missouri River Basin.
    The Corps of Engineers administers the system with the 
guidance of the Missouri River Basin Mainstem Reservoir System 
Master Water Control Manual, known as the Master Manual, which 
outlines how the Corps of Engineers will operate the system to 
meet its eight congressionally authorized purposes for managing 
the system.
    These include flood control, navigation, water supply, 
water quality control, irrigation, recreation, hydropower, and 
fish and wildlife.
    In order for the Corps to fulfill its obligation of flood 
control, it is vital that they are equipped with the proper 
tools and the authority to take necessary action. Managing the 
system in accordance with these eight congressionally 
authorized purposes is always a careful balance when 
incorporating the needs and concerns of states in the Lower 
Missouri Basin with concerns of States in the Upper Basin.
    However, this year, States in the upper, middle, and lower 
parts of the system are all asking similar questions: Are we 
doing the best we can to manage the storage capacity and water 
levels of the Missouri River system? What do we need to do 
differently, and how do we make necessary changes to mitigate 
the damages in years of historic runoff? What authorities need 
to be changed, and what are we doing that just doesn't make 
sense anymore when considering that there is a trend of rising 
average runoff?
    As we begin, I want to thank all of the people, the good 
people of the Corps of Engineers, whose job it is to operate 
the system and who are committed to the protection of millions 
of people and billions of dollars in property throughout the 
Missouri River Basin. They live among us and in many cases are 
our friends and relatives and neighbors. Thank you.
    To those individuals, I just want to let you know that the 
fact that we must ask these hard questions, these should not 
cause any doubt that your fellow citizens appreciate the hard 
work that you do every day.
    As I get ready to turn it over to the witnesses for 
testimony, I want to give a quick overview of how this hearing 
will unfold. We will be receiving testimony from Brigadier 
General Peter Helmlinger and Mr. John Remus. And Johnny is the 
Chief of the Missouri River Basin Water Management Division of 
the Army Corps of Engineers, Northwestern Division.
    Now, then, we're going to move into the questions and the 
answers. And additionally, I would just simply note that the 
microphones, as I understand them, are on right now and that 
they will remain on, so you won't have to look for any switches 
in this particular case.
    Again, I want to thank General Helmlinger and Mr. Remus for 
traveling to South Dakota to testify and to participate in this 
hearing, and I look forward to a productive discussion.
    With that, General Helmlinger.

[[Page 3]]

 STATEMENT OF BRIGADIER GENERAL D. PETER HELMLINGER, NORTHWEST 
        DIVISION COMMANDER, U.S. ARMY CORPS OF ENGINEERS

    General Helmlinger. Senator Rounds, thank you for this 
opportunity to speak with you today about the 2019 flooding 
along the Missouri River Basin.
    And as you mentioned, I am Brigadier General Peter 
Helmlinger, Commanding General for the Northwestern Division, 
U.S. Army Corps of Engineers, and I'm joined by Mr. John Remus, 
Chief of our Missouri River Water Management Division.
    Today we would like to discuss how the Corps has operated 
in the Missouri River Mainstem Reservoir System to reduce 
flooding during what has been an extremely challenging year, 
and we also want to highlight our three phase recovery effort 
as we work to assess the damage and provide initial repairs so 
that the Lower Basin's levee systems--return those levee 
systems to their original level of protection and work with 
impacted States to identify potential ways to improve flood 
risk management along that reach of the river for future 
events.
    I would first like to acknowledge the widespread 
devastation and serious impacts this spring's Missouri River 
flooding has created for many people. The flooding has 
displaced people in whole communities, damaged infrastructure, 
and shut down commerce.
    Since the flooding began in March, leaders from across the 
Corps and the Administration have visited the region to 
understand the scale of the damage and to assure everyone we 
will do everything within our authorities to help them recover 
from this tragedy.
    The dam and levee systems worked as designed and built. 
Unfortunately, this event was triggered by a very powerful 
storm that hit mostly downstream of the Upper Basin dams, and 
we were largely denied the ability to control the runoff.
    Mr. Remus will discuss the mechanics of the storm and the 
resulting flood. But the runoff quickly overwhelmed the design 
capacity of the levee systems in the Lower Basin, resulting in 
extensive overtopping and breaches along the entire system. As 
a result of the storm, 850 miles of levees in Iowa, and 
Nebraska, Kansas, and Missouri were damaged. We are working 
with States and the local levee sponsors to repair the damage, 
but this will take time and your continued support.
    We have approved 64 project information reports thus far, 
enabling us to obtain funding for engineering, design, and 
construction. Our running estimate of the cost to repair 
damages to levees thus far is approximately $1.1 billion, as 
reflected in those 64 completed project information report cost 
estimates. This total will most certainly increase based on 30 
more projected projects, pending approval within the next few 
months.
    As we move forward, however, we should not simply repair 
the damaged levees to their pre-flood conditions, which is all 
we are authorized to do. Instead, we need to use this 
opportunity to prepare a holistic assessment of what 
improvements to the Lower Basin levee system are possible.
    Let me now explain our three phase approach to recovery. 
Our first phase one has been the initial response. This 
includes activities related to identifying and enclosing 
critical levee breaches; and

[[Page 4]]

then, to protect vital infrastructure, population centers; and 
to stop breach flows so the river can return to its normal 
banks.
    Omaha and Kansas City Districts began this effort through 
aerial reconnaissance and data collection almost immediately 
after the skies cleared in March. Since then, we have closed 
massive breaches, some 1,000 feet wide and up to 72 feet deep, 
in order to redirect the river into its banks and to enable the 
evacuation of water from the land side of those levees.
    To date, we have closed 13 major breaches, and we are 
conducting engineering and design on 29 levee sections. And we 
recently awarded construction contracts for another two levees, 
that is Levee R-616, near Offutt Air Force Base, Nebraska; and 
the North Bank Elkhorn River Levee near Pierce, Nebraska.
    Our phase two effort is focused on system recovery. This 
largely consists of our efforts to fully repair damaged levees 
in the Public Law 84-99 program and to bring them back to their 
original level of protection, as well as implement minor levee 
realignments where feasible. We have already received numerous 
requests from levee sponsors for such repairs.
    Some additional levee systems will require water levels to 
recede further before we can accurately assess damages and 
complete engineering and design efforts for those levees. 
Although rainfall in the Midwest is causing waters to remain 
higher than average, field teams are increasingly able to 
access damaged levees and refine their assessments.
    Our phase three effort is our recovery efforts focused on 
future actions and the challenges to reduce flood risk long 
term. The Corps has been meeting with State partners in the 
Basin all summer to discuss developing studies and products 
under planning assistance to States, Flood Plain Management 
Services, Silver Jackets, and other programs. These efforts are 
intended to help our regional and local partners with their 
specific flood risk management data, technical, and planning 
needs in order to inform their recovery efforts and give them 
the tools and knowledge to help make their flood risk 
management systems more resilient.
    We are also discussing pursuing a more comprehensive cost 
shared feasibility study on the Lower Mississippi River--I just 
came from the Mississippi River, please forgive me--along the 
Lower Missouri River that would evaluate both structural and 
non-structural flood risk management measures to reduce flood 
risk and life safety risks, increase system flood conveyance, 
and improve system resilience.
    The geographic scope of the feasibility study would be the 
lower 735 miles of the Missouri River from Sioux City, Iowa, to 
the mouth of the Missouri River and its tributaries. The study 
would not examine changes to the Master Manual or other Corps 
Water Control Manuals and would only be looking at flood risk 
management measures with minimal, if any, negative impacts in 
navigation and other authorized purposes of the Missouri River 
projects. Such a study is critical if we are to prepare for the 
next major flood in this Basin.
    And finally, I'd like to highlight the importance of 
communication. Our communication with partners, stakeholders, 
and the public was comprehensive and wide reaching before the 
March flood

[[Page 5]]

event, and became even more robust as a result of the flood. 
Throughout the flood event, the Corps took numerous actions to 
ensure effective communication with those affected through a 
variety of forms.
    Since March 14th, Omaha and Kansas City District Commanders 
have personally engaged with stakeholders on a regular basis 
including local, State, and tribal governments, as well as with 
congressional interests, to provide updates on flood conditions 
and recovery actions.
    The Corps also began a daily update to call [unclear] for 
these groups and the media starting March 15th. Daily press 
releases also kept the public informed of changes in risk 
forecast, including information on any changes and releases 
from Gavins Point Dam. Social media platforms, including 
Facebook and Twitter, were also used to provide the latest 
updates to the public.
    Stakeholder meetings, informational briefings, and public 
postings continue today. We understand our duties and 
obligations to communicate with those who are impacted by our 
decisions and operations. We will continue to evaluate how and 
when to maximize the effectiveness of the information that we 
share.
    Senator Rounds, thank you for the opportunity to speak with 
you today. In closing, I would like to emphasize our No. 1 
priority of the Corps in its operations is life and public 
safety. Our current focus remains to protect life and work with 
other Federal agencies, and States, and local authorities to 
help communities recover from this flood and to improve the 
system to reduce flood risk in the future. And sir, I look 
forward to your questions.
    [The prepared statement of General Helmlinger and Mr. Remus 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Rounds. Thank you.
    Mr. Remus, did you have an opening statement as well?

  STATEMENT OF JOHN REMUS, CHIEF, MISSOURI RIVER BASIN WATER 
       MANAGEMENT DIVISION, U.S. ARMY CORPS OF ENGINEERS

    Mr. Remus. I did, thank you.
    Good afternoon, Senator Rounds, and thank you for the 
opportunity to speak with you today.
    I am John Remus, Chief of the Missouri River Basin Water 
Management Division for the Northwestern Division, U.S. Army 
Corps of Engineers. My staff and I are responsible for 
regulating the Missouri River Mainstem Reservoir System.
    As General Helmlinger said, I will discuss the conditions 
that have led to the flooding and our operational responses to 
these conditions.
    However, first, I would like to explain, in general, how 
the system was designed and is operating to provide flood 
control for the Basin. The Corps operates the system consistent 
with the aid authorized purposes of flood control, navigation, 
hydropower, water supply, water quality control, irrigation, 
recreation, and fish and wildlife. The system includes six 
large dams and reservoirs, and

[[Page 6]]

comprises the largest reservoir system by storage volume in 
North America.
    While the system is quite large, it is important to note 
that 98 percent of the system storage is upstream of the Gavins 
Point Reservoir; therefore, the system cannot capture and 
manage significant runoff that enters through the river below 
the storage reservoirs. The Corps designed a system to capture 
runoff from mountain and plains' snowpack, and rainfall in the 
Upper Basin that could otherwise, in the absence of the 
reservoirs, result in flooding, and then release that water 
gradually over the year. This provides the maximum amount of 
flood risk reduction while serving all authorized purposes.
    The Corps did not design, nor do we operate, the system to 
carry over floodwater from one year to the next. We operate the 
system in accordance with the 2018 Missouri River Master Water 
Control Manual, consistent with the authorized purposes, while 
maintaining compliance with all Federal laws.
    In large runoff years, such as 2019, or during an extreme 
hydrological event, the flood control objective drives the 
Corps' operational decisions for the system. During average or 
below average runoff years, the Corps operates the system for 
flood control and to need flow targets in the Lower River for 
other purposes, such as navigation.
    As of July 31st, 2019, the runoff in the Upper Basin has 
been 45.3 million acre-feet, surpassing the 42.2 million acre-
feet in 2018, making 2019 already the third highest runoff on 
record. The projected--as of August 1st, 2019, the projected 
runoff in the Upper Basin is 52.9 million acre-feet, which, if 
realized, would be the second highest runoff on record. Only 
the 2011 runoff of 61 million acre-feet would be greater.
    My office uses a number of tools to inform our operations 
and one of those tools is the Short-Range Reservoir Operation 
Forecast, that is more commonly referred to as the 3-week 
forecast. The information contained in the 3-week forecast 
includes average daily flows; average daily--excuse me, average 
daily inflows; average daily releases; reservoir elevations; 
and hydropower generation for each of the six Mainstem 
projects, as well as a forecasted total storage volume.
    The 3-week forecast is issued every Wednesday, and more 
often if conditions require it. The 3-week forecast is 
developed based on the combination of observed tributary flows, 
Missouri River flows, and the long range runoff forecast. The 
long range runoff forecast is updated at the beginning of each 
month, and more often if needed, and is based on the current 
conditions and long range trends in the Missouri River Basin. 
The 3-week forecast is usually the tool to manage risk on a 
systemwide basis.
    The flooding that has occurred and continues to occur on 
the Lower Missouri is not the result of a single event, but 
rather a series of events. I will briefly discuss these events. 
In March, a bomb cyclone dumped 2 to 4 inches of rain on top of 
a plains snowpack that contained 2 to 8 inches of snow water 
equivalent. Furthermore, the soils in this area were very wet 
and frozen to depths exceeding 2 feet. This combination of 
condition caused a rapid snowmelt and extreme runoff.

[[Page 7]]

    The runoff, primarily from the Niangua River, require 
releases from Gavins Point Dam to be increased to 100,000 cubic 
feet per second for a short period of time to prevent 
overtopping the gates. The tributary inflow from below the 
system caused levees downstream of Omaha, Nebraska, to overtop 
and fail. During this event, and for several days following 
this event, releases from Fort Randall Dam were shut off 
completely in an attempt to lessen the flooding downstream of 
the system.
    The bomb cyclone also produced an additional 2 to 4 inches 
of snow water equivalent in South Dakota and North Dakota. In 
April, the plains' snowpack began to melt relatively rapidly, 
leading to rapidly rising pools at Oahe and Fort Randall 
Reservoirs, which required higher than average releases from 
these projects. Incremental inflows between Fort Randall and 
the Gavins Point Dam remain high due to continued rainfall, 
primarily in the Niangua River Basin. These circumstances 
required increased system releases from Gavins Point.
    In May, rainfall in South Dakota was 300 to 500 percent of 
average. Runoff into the Oahe and Fort Randall Reservoirs was 
500 percent and 950 percent of average, respectively. This 
resulted in the pools at Oahe and Fort Randall entering their 
exclusive flood control zones. The pools at Oahe and Fort 
Randall remained in exclusive flood control zones for several 
weeks, and Oahe still remains near the exclusive flood control 
zone.
    These circumstances required minimal releases from Fort 
Peck and Garrison Dams and higher than average releases from 
Oahe and Fort Randall in order to manage the pools without 
increasing flood risk downstream or creating any dam safety 
concerns. System releases reached 75,000 cfs in May.
    In the Lower Basin, the rainfall in May was widespread and 
above normal, particularly in Kansas, which experienced the 
wettest month on record. This precipitation, combined with the 
sustained higher than average system releases, led to flooding 
on the Missouri River from Blair, Nebraska, to the mouth.
    The mountain snowpack, which was nearly average for the 
most part, melted in June. Above average precipitation in the 
Upper Basin added to the runoff. June runoff in the Upper Basin 
was 160 percent of average, causing the pools at Fort Peck and 
Garrison to enter their exclusive flood control zones. This, in 
turn, required the average daily outflows from Fort Peck, 
Garrison, Oahe, and Fort Randall to be increased. At the 
beginning of June, the system releases were 75,000 cubic feet 
per second and were reduced to 70,000 cubic feet per second as 
their incremental flows from the Niangua River declined.
    In the Lower Basin, the rainfall in June continued to be 
above average. This precipitation, combined with the sustained 
higher than average system releases, led to the flooding on the 
Missouri River from the confluence of the Platte River to the 
mouth.
    The July runoff in the Upper Basin was 213 percent of 
average. The Fort Peck and Garrison pools remained in their 
exclusive flood control zones for the entire month. The system 
releases at Gavins Point were maintained at 70,000 cubic feet 
per second. The rainstorms, particularly in Kansas and 
Missouri, resulted in higher than average inflows from 
tributaries.

[[Page 8]]

    For the first 3 weeks of August, runoff in the Upper Basin 
has trended above the forecast. If this trend continues, the 
system releases of 70,000 cubic feet per second will need to be 
sustained well into September and possibly longer in order to 
evacuate all the water currently stored in the designated flood 
control zones.
    Due to extreme runoff in 2018 and 2019, our operational 
decisions for the last 18 months have been driven by life 
safety and loss of property concerns. During this critical 
period, our principal and sole focus has been on the flood 
control purpose of the system. For example, considerations 
related to the endangered species, the endangered fish and 
birds in the Mainstem did not influence our reservoir 
operations during this time.
    I appreciate this opportunity to be here today and look 
forward to answering your questions.
    Senator Rounds. Thank you, sir.
    I've got a series of questions. Normally when we're in 
Washington, we're limited, each member, to 5 minutes. And then, 
after that, you go around until you're done and then you start 
over again. These gentlemen aren't that fortunate today because 
I'm the only one here, and that means that I'm just going to 
continue on for a while.
    [Laughter.]
    But I've got a couple formal questions that I want to work 
my way through, then I'm going to break it down and actually 
have a conversation with you about how we make this thing 
better long term.
    General Helmlinger, you command the Division and have 
oversight of the District that will field the snowpack 
monitoring system in the Upper Missouri River Basin. This 
capability was authorized in the 2014 Water Resources 
Development Act. It's also known as the WRDA and has long been 
a priority of mine.
    I had language included in the 2016 WRDA, a bill that 
directed the U.S. Army Corps to be the lead agency for 
coordinating the soil moisture and snowpack monitoring network 
in the Upper Missouri River Basin. I was also able to have an 
amendment included in the 2017 Senate Energy and Water 
Appropriations Bill that would have provided the Corps with $2 
million to begin implementation of the snowpack monitoring 
program.
    The snowpack monitoring system will provide your water 
management team with more precise information on the volume of 
water entering the system, which will enable them to make 
better decisions on reservoir releases. This is something that 
was recommended in the 2011 flood review and will make the 
citizens of every State in the entire Missouri River Basin 
safer and more secure. And by the way, that was a Corps of 
Engineers' recommendation.
    General Helmlinger. Yes.
    Senator Rounds. As I am sure you are aware, I have been 
working very closely with Assistant Secretary of the Army, R. 
D. James, to assure that lack of funding will not be a factor 
in the implementation of the system over the next 2 years.
    John is smiling over there, I see.
    [Laughter.]

[[Page 9]]

    Senator Rounds. Funding for the initial procurement of the 
equipment was put in place months ago. Major General Spellmon 
gave me his commitment to personally review the plan at a 
hearing in March, and this will be a priority topic for my 
meeting with the Chief of Engineers next month.
    As the Commander of this area of operations, though, can 
you provide us with an update of where we currently stand with 
respect to reaching the execution milestones of implementing 
the system, and can you tell me when we expect to install and 
be receiving data from the snowpack monitoring system?
    General Helmlinger. Yes, Senator. So, first, let me thank 
you for championing this effort because it is an important 
project that will improve our ability to forecast runoff, and 
therefore, continue to ensure the safety of the entire system.
    As you recognize, Senator, when we first received the 
authority, we did not have the appropriations with it. But we 
now have funds supporting it, and we're currently developing 
our plan for implementation. My District Commander, Colonel 
John Hudson, will be able to brief you in detail in October 
once we complete our detailed plan, as to the scope, the cost, 
and the schedule for implementation.
    But I'd like to share with you now just the broad concept 
to implement that. So, we are pursuing this in a three phase 
effort. The first phase is the quick win and what we can do 
soonest, and that's to add additional sensors to the existing 
mesonet sites across the region. They are across five different 
States. There are approximately 180 existing sites across the 
region, and our first plan is to add sensors to those 
locations.
    Our second phase, then, is to focus on the Cheyenne River 
Basin, to install the snowpack and moisture sensors along that 
Basin as a priority effort. Once we finish with that Basin, 
we'll complete the rest of the region.
    The end state is to have these stations installed--500, 600 
stations installed across the region. The implementation time 
will take several years to implement on that, and I appreciate 
that you're championing for funding for this.
    But a lesson that we learned from New York is we don't want 
to rush into this. We want to take the lessons learned as we 
implement our first stations, so that we can incorporate those 
into follow on ones. But we'll brief you again in October on 
our comprehensive plan for this.
    Senator Rounds. Well, I know that the equipment is being 
tested at this point at South Dakota State University, and so I 
know that we're moving forward with the project, but it leads 
into my next question a little bit, and I think we're talking 
about the same approach. But there's a maxim in the Army that 
says that you should be working smarter, not harder. And I 
think that's an appropriate thing to be looking at here, the 
Corps of Engineers in this particular issue, as well.
    I've been told that there is a great opportunity to 
leverage the existing monitoring stations operated by 
universities in the Upper Missouri River Basin. And I'm not 
sure if that's the same grouping that you're referring to, but 
I'm very happy to hear, if that is the case, that you are 
pursuing that at this time. I also understand

[[Page 10]]

that they are capable of being upgraded to meet the standards 
that we would need in this particular case.
    I just want to make sure that if that is the case, whether 
this is the same system that I'm referring to that's operated 
by the university system that you're referring to as well?
    General Helmlinger. If Mr. Remus can assist me in this.
    Mr. Remus. Yes, Senator, South Dakota has a mesonet, 
Nebraska does, North Dakota has the same thing. It's not called 
a mesonet. They are basically soil moisture monitors on sites.
    Senator Rounds. Right.
    Mr. Remus. We plan to upgrade the soil moisture monitoring 
where needed and then add to the snowpack to those sites. And 
we're going to count very heavily on the universities to help 
us there.
    The South Dakota State report is finalized, and we do have 
that final report in, which really--the testing of the 
equipment is over. Now we know what we need, what's the best 
equipment to get. So, that's the next phase is getting that 
equipment.
    The difficulty with that is that this isn't something you 
go to RadioShack and buy. This is some fairly sophisticated 
equipment. There is just, you know, the supply issue there. So, 
that's going to be the initial limiting factor there.
    And as General Helmlinger said, we've consulted the State 
of New York. We put in a snowpack and soil-moisture monitoring. 
They were very similar to what we've come up with. And their 
lesson learned was: Do it; learn what you need to learn, and 
keep going; don't try and do it all in 1 year, because they put 
it in all in 1 year. Their costs went way up, and then they 
went back and redid it. So we're----
    Senator Rounds. Well, I'm pleased, and my understanding is 
that this is the same system that I'm referring to. It also 
sounds to me, though, that one of the issues would have been if 
we were not using that separate system that's already installed 
out there as locations, we may very well have had a 
geographical placement problem that we now can, basically, look 
at perhaps being not a problem in terms of a slow down, what's 
regarding to finding and getting permission to place. And some 
of those have already been placed. And now this is a matter of 
upgrading and getting these up to the systems' capability that 
we need in order to get these appropriate measurements 
completed. Is that correct?
    Mr. Remus. That's correct. And as General Helmlinger said, 
there's approximately 180 mesonet sites over five States in the 
Upper Basin. We don't know if all of those 180--plus or minus--
sites are going to be adequate for snowpack monitoring. So, 
we're going through evaluating those. We think that most of 
them will be.
    So, it gives us a good start while we get the process in 
place for acquiring other areas. So, it's--I don't want to say 
it jump starts, but it gives us a little bit of a head start 
here while we're learning some of the other things we need to 
learn.
    Senator Rounds. Well, just for the benefit, we've had a 
mountain pack measuring system up and operational for years. 
And it has been consistent, and it does a very good job of 
allowing the Corps

[[Page 11]]

to give them a measure of what their mountain snowpack has 
been.
    But in most recent years, the plains' snowpack has been a 
significant part of the challenge. And one, because in many 
cases it occurs and changes rapidly in the spring of the year, 
which is when most of our moisture is received. But it limits 
their ability right now to be able to determine how quick or 
how much there is for plains' snowpack to add to the mountain 
snowpack melt.
    And what we've been trying to do now for a number of years 
is to get this implemented. And I'm very pleased to hear that 
this is in a position to be expedited with the use of the 
existing, already installed system that needs to be upgraded. 
And that we may very well not have to work our way through 
trying to find additional locations, in terms of where those 
180 sites that might be available for us here, that would 
significantly reduce the amount of trouble in trying to find 
new geographical locations to install these plains' sites. Is 
that a fair statement?
    Mr. Remus. It'll give us a head start on that, sir.
    Senator Rounds. OK.
    Mr. Remus. On the other half of your question, how soon 
will we be getting data? When we install a site, we're going to 
be getting data from that site the next day. So, as we install 
these this fall and into the winter, we should be seeing data 
from those the next day. The National Oceanic and Atmospheric 
Administration has already agreed to manage the database for 
us, so.
    Senator Rounds. Very good.
    And General Helmlinger, historical average runoff into the 
Missouri River system, based on 120 years of recorded data, is, 
as testimony has already indicated, just over 25 million acre-
feet. However, over the past 10 years, the average runoff into 
the Missouri River system is 33.5 million acre-feet, and this 
does not include 2019, which projects to be the second highest 
year runoff ever recorded and more than doubles the average 
annual runoff.
    Yet in March of this year, your projected total runoff was 
28.4 million acre-feet for the year. As of August 1st, the 
total runoff was already 52.9 million acre-feet, which is 186 
percent over your March estimate.
    And this is not a new trend. In 2011, the Corps projected 
29.8 million acre-feet of runoff, yet the actual total runoff 
was 61 million acre-feet, 145 percent over the March estimate. 
Last year, those numbers were 29 million acre-feet projected 
and 42 million acre-feet actual, 145 percent over.
    And I've got some charts up here, and I just want to point 
out, just in terms of these wet years, the difference between 
what you're projecting, then, maybe versus--what, this is the 
third one over, the one closest to me, showing the annual 
runoff--over--above Sioux City in terms of the projections 
versus the actuals.
    In your estimation, are there improvements that can be made 
to your method for predicting runoff, and can those changes be 
made today, or will they require an update to the Master 
Manual?
    And Mr. Remus, I know that you follow this regularly. Your 
3-week projections are typically released once a week and tend 
to be the most accurate in the first few days after the 
projection, naturally. How difficult would it be to put out 
those projections more

[[Page 12]]

often, and would it be worthwhile to do? And to what extent are 
the 3-week forecasts, in an effort to provide transparency in 
decisionmaking, compare to being methods of producing the 
decisions with regard to waterflow, or are they the same thing?
    General Helmlinger.
    General Helmlinger. Well, Senator, so I'll begin. And the 
water events in the Midwest are becoming more frequent and 
intense. The National Weather Service has documented it.
    We do incorporate each year's weather pattern into our 
total running record of 128 years--121 years that--and we 
compare--and so we adjust our new average baseline every year 
based on that. But we are making incremental improvements every 
year as we get more data on there.
    One of our other improvements will be, as you've alluded 
to, is the installation of the soil moisture and snowpack 
monitoring. We'll get more timely data on that. But for more 
detailed feedback on our projections, I have to turn to Mr. 
Remus.
    Mr. Remus. I just have to start with when we develop our 
annual runoff forecast beginning in December, we look at the 
conditions in the Basin, what we call water on the ground, 
that's snow; what we know about the mountain snowpack; what we 
know about the plains' snowpack; soil conditions.
    And we look at the Climate Prediction Center's long range--
I don't want to call it a forecast. It's their outlook as far 
as is it going to trend toward a wetter or a dryer 3 months, or 
is it equal chances, is what they call the we don't really know 
type situation. And that's how we build our runoff forecast.
    We don't, you know, try to fit it to some average or some 
curve. We go with our conditions there. And an example of that: 
This year our March runoff forecast was 28.4 million acre-feet, 
which is, you know, about 3 million acre-feet above normal. And 
that was based on the fact that on March 1st, the plains' 
snowpack was about average. The bomb cyclone added quite a bit 
of water there, the mountain snowpack was about average, and we 
had wet soil conditions.
    So, we figured in the long range outlook was equal chances: 
Maybe it's dry; maybe it's wet. We don't know. So, that's how 
we build our runoff forecast on April--or excuse me, March 1st 
this year. We only say, well, does it averag e a little more, a 
little less. We look at the conditions on the ground.
    Senator Rounds. Let me just--because there's part of this 
which I don't understand yet, and this is General Helmlinger, 
in your letter to Stakeholders and Concerned Citizens that 
accompanied the 2018-2019 Annual Operating Plan to explain that 
the Operating Manual creates guidelines by applying the Master 
Manual to, and I quote this, ``computer simulations of the 
reservoir system regulation assuming five statistically derived 
inflow scenarios based on an analysis of water supply records 
from 1898 to 2011.'' Now, this is in 2018.
    Data show that average runoff into the system in the years, 
these scenarios, but disregarding years 2012 through 2018, 13 
percent higher than the average runoff into the system. 
Additionally, if you look at the runoff just from the past 10 
years, runoff average

[[Page 13]]

is, over that time, is 33.5 million acre-feet, 25 percent above 
the historical average.
    Why does the Corps project, do they use projections that 
disregard runoffs totals that we accumulate after the 2012 year 
from their analysis? And additionally, why doesn't the Corps 
use trending runoff averages?
    And General, if you want John to answer that, that's fine.
    Mr. Remus. We use the process I explained to you and then 
to bracket that with what would be an upper quartile or an 
upper decile, or a lower quartile or lower decile runoff year, 
and that's where we use the statistical averages to move--once 
we develop our annual runoff projection, our forecast, then we 
use statistics to say, well, you know, statistically, an upper 
decile would add this many million acre-feet or so. That's how 
we----
    Senator Rounds. Sir, are you telling me that you are taking 
into account from 2012 to 20--no?
    Mr. Remus. Now, I'm getting to that.
    Senator Rounds. OK.
    Mr. Remus. The reason why we ended at 2012 is there's the 
Bureau of Reclamation develops what we call holdouts. So, 
basically, it's irrigation diversion.
    So it's a depletion from the reservoirs or from the runoff 
in the system. They only update that every--about every 10 
years, so they're due to do that again in 2020. So, that's why 
we really don't have any--and because we have to use those same 
statistics from the Bureau in our holdouts.
    We don't--you know, just because 2019 is going to be a very 
large runoff year, that doesn't mean 2020 will be a large 
runoff year.
    Senator Rounds. Well, that's what I want to get into this a 
little bit.
    Mr. Remus. Because--2011 was the record, and 2012 was a 
drought.
    Senator Rounds. Yes.
    Mr. Remus. So we----
    Senator Rounds. But let's look at this just a little bit 
because I want to go into the fact that--well, let's just--take 
a look at the trends that have occurred, and I'm going to point 
out beginning with my slide, the farthest one away from you, 
the Annual Runoff Above Sioux City, Iowa.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Rounds. This is a Corps' chart. The blues are where 
we have above average; the browns are where it's below average. 
There's a consistency to the inconsistency.
    There's wet periods, and then they move into a dry period, 
and then back into a wet.
    Now, granted, it is cyclical. There's a clear cyclical. 
We've broke it down right next to it, and I've handed out, I 
think, charts of the annual runoff. This is above Sioux City, 
Iowa. How come 1898 to 2019?
    And I'm just going to work through this because I think 
this is worth looking at. From 1898 to 1929, the average was 
27.53. From 1930 to 1941, dry period, average 15.64. From 1942 
to 1953, wet

[[Page 14]]

year, 27.25 was the average runoff. From 1954 to 1961, down to 
18.33, dry year. Up again to the next trend.
    From 1962 to 1986, 27.46, above average. And then right 
back down to 17.81 on 1987 to 1992. And then back, turned 
around again, now we have a trend from 1993 to 1999; we're at 
34.20 million acre-feet that have been received. And then right 
beginning in 2000, we go down for 7 years in drought cycle. And 
then coming back up again in 2008 to 2019, we're back up to 
34.46.
    What I'm pointing out is there is a consistency to these 
trending years. And yet, we always move if we're in dry years, 
we assume back to average. And in wet years, we still assume 
back to average when we start out, even if the trend is moving 
wetter or if the trend is moving dryer.
    And it would appear to me that it would give you a lot 
bigger tool chest if you could, rather than always assuming 
average, which it appears that you do when you begin your 
forecast, if you could make the assumption that we are in a wet 
cycle. Or if we are in a drought--what, because I think the 
same formula or the same approach should work whether you're 
talking a dry year or a wet year. There's going to be a time 
period in which we're going to have a drought appear. When that 
drought comes, we don't want everybody saying, gee, everything 
is always assumed wetter.
    But if there is a change in there--because right now when 
you're average, there's only a couple times that you're 
actually correct in your estimates, and that's during the 
change in the cycle, up or down. But is there a reason, or is 
there a possibility that in this day and age with more and more 
resources available to us, that we can actually begin trending 
earlier in the year whether we need to be releasing amounts of 
water from the reservoirs earlier at a higher rate, and during 
dry years, recognizing that in order to conserve that water for 
a long term purpose, upstream and downstream, that we release a 
lower amount during those dry years. I'm just asking the 
question----
    Mr. Remus. Can you explain what you mean by trending to 
average?
    Senator Rounds. Yes. My understanding right now is that--
and I can go all the way back--when I was working with this 
Governor, we had discussions about the fact that we had 
droughts in South Dakota. And there was a time period in which 
out of our reservoir systems where the Missouri River was 
actually back, in some case, into the original banks of the 
Missouri River, particularly up in the Fort Yates area in North 
Dakota.
    During that time period, we chased water. We had water 
reservoirs or we had water intakes for the Cheyenne River 
Indian Reservation and so forth. And we actually had to extend 
down in deeper into the Mainstem of the Missouri because the 
water levels were being depleted because at that point we were 
still pushing water out, not at a normal rate, but it took us 
an extended period of time before we started to reduce because 
we had lower levels than anticipated as average.
    But during that same time period, we were pushing out more 
water than what was coming in over an extended period of time. 
In doing so, we put a lot of folks in the Upper Basin at risk. 
At the same time, during times of wet periods, now we have an 
aver

[[Page 15]]

age that we appear to be using to start out with each year, but 
we're not recognizing early on that there is significant 
snowpack.
    In fact, this year we had multiple conversations with the 
offices where folks on the ground up in the Upper levels were 
saying, We got lots of snowpack. We got lots of moisture up 
here. Why aren't we at least starting to release some water 
because we've got a huge amount that we're going to be storing 
up here.
    And yet it appeared that we weren't in a position to be 
able to respond and average that water out, so that you don't 
end up with an increase in the amount of water coming down from 
the Missouri River at a time, in which it sure would have been 
nice if we could have slowed down the release during a time of 
very high water coming in from the Platte and other locations.
    Mr. Remus. Are you talking about more of the water we have 
stored?
    Senator Rounds. Yes.
    Mr. Remus. OK. All right. Thank you.
    Senator Rounds. Because that's really the only tool that 
you have. And let's face it, the bomb cyclone that hit this 
time around where the vast majority of it impacted Gavins Point 
and below, Gavins Point is really not a flood control device. 
It's a regulating device, but it doesn't have storage capacity 
in it. Whatever comes into it really has to come out of it.
    And everything down below that, the flood control devices 
you've got, the levees and dikes and so forth that you have, 
they can control some. But when you were as impacted as you 
were this particular year, you really don't have a lot of tools 
available to you, other than what you could stop from coming 
through from the Upper Mainstem--the reservoirs.
    If those reservoirs would have had perhaps just a slightly 
less amount in, recognizing that we're in a wet sequence, there 
may very well have been a time there in which you could have 
retained more for a period of time, or if you started early 
enough, released a higher percentage rate coming through during 
this wet cycle period so that you didn't have larger amounts 
coming through during a time in which you have the, for lack of 
a better term, the Oh, crap moment when we have the bomb 
cyclone. And this year, I recognize, clearly, you had more 
water down there than you could ever handle with the limited 
amount of capacity in the Gavins Point reservoir system itself. 
It just simply isn't there.
    But most certainly to be able to slow down into, as we say, 
meter that water out, it seems to me would have been very 
helpful in the locations down below, and particularly in the 
Omaha area, if we could have slowed down some of the releases 
coming out--for a longer period of time. And I just want your 
thoughts in terms of being able to look at, rather than average 
amounts, actually trending those a little bit earlier in the 
year that it's occurring.
    Mr. Remus. Well, as you know, Senator Rounds, no matter how 
warm the winter gets in Pierre, South Dakota, you get ice on 
the river below Oahe Dam.
    Senator Rounds. Yes.
    Mr. Remus. And ice below Oahe, ice in the Bismarck-Mandan 
area, it really limits our ability to evacuate storage in the 
wintertime. If we push it, and right up to the limit, we can 
maybe get

[[Page 16]]

25,000 cubic feet per second out of Garrison or Oahe. But 
that's running at awfully close to the limit where we are 
risking ice jams, which then you're not releasing anything, and 
you're flooding people in the time when it's going to put water 
in their front yard or their home and freeze.
    So, we really can't begin to overdraft or do preemptive 
releases until the ice is gone, which is usually around the 
first of March in the Pierre, Fort Pierre area; in the middle 
of March up in Bismarck and which----
    Senator Rounds. Let me ask a question on that, though, 
because----
    Mr. Remus. Yes. OK.
    Senator Rounds. What do you use for your ice dates in the 
Upper Basins?
    Mr. Remus. In the Bismarck-Mandan area, it generally is the 
second week in December. Now this last year, December was a 
warm month all over the Basin. We had 80 degrees days in 
December. So, but they still had ice there, and it did freeze 
over eventually.
    So, you can't count on a warm December or a warm February. 
So, we have to plan to have the system down to maybe a million 
extra feet because that's what we can get out of the----
    Senator Rounds. Yes.
    Mr. Remus [continuing]. With the ice. So, we really need to 
know if we're going to start overdrafting that. We need to 
really kind of know that in July, really. Particularly last 
year because we had a very high runoff. If we were going to 
plan for 52.9 million acre-feet this year, we would have to 
have known that very early to make it around, so.
    Senator Rounds. I won't belabor the point. But the reason 
why I ask the question, you do have a certain amount in which 
you most certainly do let out, whether it's 5,000 cubic feet or 
7,000 or 9,000 or 12,000. But whatever that is, that's the 
amount you need to maintain during that ice period.
    But if you know that in the later part of December, that 
might very well be 5,000 more or 7,000 more for that same time 
period because your ice is going to form on whatever you do put 
out. That's my question.
    Mr. Remus. The ice will probably not form. It's really on 
how much you could freeze in. And we try to freeze in at higher 
stages, and we just can't get it to freeze in, particularly in 
the Bismarck-Mandan area, about 25,000. And a little bit has to 
do with the backwater effect from Lake Oahe and Bismarck and 
Lake Sharpe in the Pierre, Fort Pierre area.
    Senator Rounds. Very good.
    Look, thank you, and I do appreciate that.
    Just a couple more questions that I've got on this that I 
kind of wanted to work my way through. And that is, is with 
regard to the infrastructure down below, the folks in the room 
here today, I think, have concerns about some of the 
infrastructure and how you're going to work this.
    And General Helmlinger, you discussed this a little bit 
with regard to the three phase approach that you want to do. 
But I want to work my way through this a little bit.

[[Page 17]]

    And I just want to begin with talking about Public Law 84-
99. In your professional military judgment, what do you need to 
get us out of this continual loop where the Corps rebuilds at 
the same standard after every significant flood even though you 
know that the improvements should be made to the system?
    Are the constraints that Public Law 84-99 place on 
rebuilding too restrictive to permit an innovative 
reconstruction effort? Do you need additional authorities? 
Should any existing authorities be changed? How much does the 
Federal cost share and requirement from, we're at 86, slow down 
the pace of producing reports and engineering analysis that 
might be integrated into contracts that very well could provide 
a more resilient system?
    And are there common sense improvements that you could add 
to designs right now with--that would not exceed the 
constraints of the law or the policy that Congress would have 
to help you with? In other words, where are we going with--
you've seen it this year where you had a bomb cyclone hit. It 
inundated some of those areas. If you were to do them today, 
you would do them differently if you were starting from 
scratch?
    Is there a restraint within the law that limits your 
ability? And is there something that Congress needs to do? Or 
is this the case of we're doing the best we can, and until such 
time as we have all phases ready to go, and there's really not 
much we can do?
    General Helmlinger. Senator, that's an excellent question. 
And first let me address that Public Law 84-99 and emphasize 
that it is an expeditionary tool to rebuild after disaster 
strikes. And it's a very useful tool used on many situations. 
There are some areas where it's cumbersome on that. One area 
that was recently lifted on that was the flexibility that was 
given through WRDA 2016, section 1176, which allows for non-
Federal sponsors to pay for betterments on what repairs.
    And that there are examples where rebuilding to the 
preexisting conditions may not be the preferred alternative for 
the non-Federal sponsor. And this now gives them an opportunity 
to pay for the difference between what the Federal Government 
would pay and what they are willing to pay, and [unclear] the 
protections required.
    This, I think, this was driven off of some of the repairs 
that were necessary in Puerto Rico where, very fragile, and the 
structure was repaired, and we invested a lot of money to 
repair what was there, but what was there was fragile to begin 
with. So, if you could put a little bit more money into it for 
a more robust and resilient design, you won't have to spend 
money twice on the same repairs. So, first I'd say, we've been 
given a very flexible and useful tool with Section 1176 on 
that.
    One authority that I would recommend as useful, which does 
not exist right now, is the authority for reimbursement of non-
Federal sponsors for the Federal share of rebuilding when we 
know that that non-Federal sponsor has the financial and 
technical abilities to do the repairs themselves. At this 
incident alone, we had some non-Federal sponsors that had the 
funding, had the technical know-how and the capability to get 
to work right away to restore their levees. But because of----

[[Page 18]]

    Senator Rounds. Are you talking in this case counties or 
municipalities or other public entities?
    General Helmlinger. Yes, sir, other public entities there, 
but we have to wait for our funds to come online so the Federal 
Government can do the work. But it would be I believe, 
effective--it would be more efficient and faster if this work 
had met all of our criterias, only we didn't have the Federal 
funds on hand, that they could accomplish the work and that we 
would reimbursement them for our Federal share afterwards.
    Senator Rounds. Let me ask this. With regard to where the 
levees are and the protections that are in place right now in 
the Middle Basin areas, areas where literally the only 
protection has been the building of these levees and so forth, 
are there areas right now, and I know that you've indicated--
first of all, you've needed to do some remedial work on those 
today. Does that limit, then, your ability to go back in and 
analyze or do the studies that would suggest different 
placement is, perhaps, not appropriate today? Do you have the 
tools and resources to reevaluate the location of those? And 
can you talk a little about what the public discussions are 
that go on prior to a decision along that line being made?
    General Helmlinger. So, Senator, we have the authority to 
do minor realignments on levees where it makes sense. You may 
have one case where you had a large scour hole that covered a 
long length, and it may be a shorter distance to rebuild a new 
levee behind that scour hole so you don't have to fill that 
back in with material. And in doing that, we're actually 
improving the conveyance of the river because we're putting 
more distance between the two sides of the river and the levees 
or the banks that may be there. So that's an example of a minor 
improvement.
    But I believe, you know, what you're alluding to is if we 
needed to do a larger realignment on that. We don't have that 
authority or ability right now to do that. Where possible, in 
our three phase implementation on here, we're trying to 
eliminate redundant work. If we can accomplish something in 
phase one that won't have to be redone or realigned in phase 
two or in our long term plan, we want to expedite those 
decisions so that we can get to the long term solution up 
front.
    But we are pressed against a clock, and that clock is next 
year's flood season. So we want to work with our partners here 
to make sure that we've got a minimum of 10- to 25-year flood 
protection for next season so that we're prepared. And due to 
the timeliness of the situation, we're not really able to get 
into that.
    Further, I want to talk about one of the cautions of P.L. 
84-99 and prompt rebuilding is where it may seem intuitive to 
make a broader change on that. We really need time to do our 
due diligence and study the second and third order effects of 
that.
    Senator Rounds. And that's part of why I wanted to it bring 
up because it seems to me that if I was a landowner or someone 
living along this part of the river, I'd be concerned that, No. 
1, if the flood control systems that are in place right now are 
not adequate, I may very well have had property damage.
    General Helmlinger. Yes.
    Senator Rounds. But second of all, if I live along this 
river and I have property along this river, I would be 
concerned about wheth

[[Page 19]]

er or not I may lose some of my property based upon a new 
recommendation. It seems to me, and I'm not sure whether you're 
prepared to discuss this or not, but could you speak to the 
process used and the amount of public advisory that occurs 
should one of these types of studies occur and recommendations 
coming through, what type of advanced notice and input would 
the public have for those types of modifications?
    General Helmlinger. Well, first, we want to gain consensus 
from all of the impacted States and their non-Federal sponsors 
that a Lower Basin flood risk management study is necessary. I 
do believe it is necessary, as have been demonstrated during 
the floods in 1993 and 2011 and this year, that the system 
simply does not have the capacity to carry the waters that 
enters the system just from the tributaries of the Lower Basin.
    So, we need to do something different than simply rebuild 
the system that we have now. What that something different 
looks like, I can't speak to details on. I can speak to the 
generalities on the structural, which is levee rebuilding or 
realignment, and non-structural measures such as building 
heights or moving structures outside of the flood plain would 
be.
    If we were to do that, we would certainly do the whole 
series of public meetings and consultation to get the plan 
right, and where we would want to work with willing individuals 
that were ready to sell land to improve the flood plain. And we 
know that there would be individuals that were against that. 
So, that's where we'd go through our deliberate planning 
process to make sure that we come up with the most acceptable 
plan possible.
    Senator Rounds. Thank you.
    Mr. Remus, I'm just going to finish with just a couple of 
questions and just a conversation, if we could.
    This year I think you found yourself in a really tough 
predicament in that you had huge amounts of water coming 
through a system that started out with a bomb cyclone that 
clearly really impacted a lot of people down below the 
reservoir system. And I think you found yourself in a position 
trying to explain why you didn't really have the tools 
available to you to fix that. And this is an area that you 
live.
    And at the same time, trying to explain that without the 
tools available to you from the Mainstem Dams because this 
occurred below the Mainstem Dams primarily, that there wasn't a 
lot that the Corps could do.
    And yet, at the same time, I know that my office and other 
offices were making contact with your office about what you 
were going to be doing to try to respond to an increasing 
amount of precipitation and water moving into the Upper 
Mainstem Dams that, eventually, it's all going to come through 
this system.
    I live on the Missouri River. I have multiple [unclear] and 
friends who make contact with me every day. I, personally, 
check the reservoir systems up and down every single day in how 
many cubic feet per second you're averaging out, what the water 
levels are on every single reservoir, how much it's going up or 
how much it's going down, and the total amount of flood 
capacity you are using. I think right now it's 10.3 million 
acre-feet as of this afternoon, or as of this morning.

[[Page 20]]

    But as I watch this, I would commend you in that with the 
tools that you had, I think your team has done a very good job 
using the tools of the Upper Mainstem Dams, you've done a very 
good job of keeping--not a single one of them has been run to 
the point where you've had to run one over the top, or that 
you've had to release items outside of using the traditional 
capacity of the power plants unless they've been down for 
repair, such as what will happen next week on the Oahe units. 
But that's been good because that meant that folks upstream 
from here have seen very, very high levels, but they have been 
manageable levels down and throughout this.
    But in December and in January and in February, I think our 
office continued to make contact and ask whether or not there 
was capacity available to look at higher releases because we 
could see, that in case it actually rained in the Upper Basin 
in the spring of the year, that you could might very well be in 
trouble. Even without that bomb cyclone hitting, we were going 
to have an excess capacity of water in the Upper Basin.
    What I'm looking for is within the Master Manual, within 
the operating constraints that you have, isn't there some way 
to be able to look at these very clear trends, where we have 
wet trends that are continuing to occur and until such time as 
it actually stops and moves into that drought cycle, which we 
will have again someday, isn't there some way to be able to, 
with the tools that you got, to be able to trend some of that 
out so that you're not sitting within inches of going over the 
top of Peck and Garrison and Oahe hoping that it doesn't rain 
in April, May, and June?
    Mr. Remus. Well, first of all, we don't ever hope that it 
doesn't rain in April, May, or June. We know it's going to rain 
in April, May, or June. I don't think we've ever had a year 
where it never rains there. And that we factor in, like I said 
earlier, we look at the Climate Prediction Center's long range 
outlook. I don't want to call it a forecast because they don't 
really forecast anything. They just kind of look at what they 
think it's going to be: wetter, dryer, and so on and so forth.
    So, we factor that into our forecast. And then every month 
we develop what we call a storage check. And in that, we look 
at all the water that we know is in the Basin, water we have in 
storage, and what we think our runoff will be based on the 
conditions, as I've explained earlier.
    OK, what do we need to be releasing from the system? That 
gives us a release from Gavins Point Dam for them. You know, 
and of course, that will always change through the year. And if 
we are projecting of a wetter year, we will release more water 
out of that beginning as soon as we can start getting it out of 
the reservoirs in North and South Dakota. Once we have the 
release from Gavins Point Dam, then we say, OK, where do we 
have to take that out of the system? How do we get it from Fort 
Peck to Gavins Point? And that's what we use the 3-week 
forecast for.
    And you're right, it's good for a couple of days, and then, 
depending on what happens--and what we do use that for is if--
and then I'll give you the example: In April, when the plains' 
snowpack started to come off very quickly, and the pools of 
Oahe and Fort Randall rose very quickly, we were saying, OK, 
what do we need to be doing at Fort Peck and Garrison to help 
manage this? You

[[Page 21]]

know, we cut flows back to minimum out of those. So, that's 
what we can do in our system. Can----
    Senator Rounds. And you hardly got Fort Peck over 15,000, 
if you even got it over 15,000.
    Mr. Remus. Well, we even--it's running at 15,000 now.
    Now, can we say, OK, we're in a dry cycle so maybe we 
should release more, try to get more out in December, January, 
and February----
    Senator Rounds. You mean a wet cycle.
    Mr. Remus. Or a wet cycle.
    Senator Rounds. Wet cycle, yes.
    Mr. Remus. Yes, I'm sorry.
    Senator Rounds. No.
    Mr. Remus. I'm just hoping, I guess.
    Again, we are kind of limited, physically, as to what we 
can take out. And we, you know, we generally planned it, move 
to evacuate a million acre-feet in those 3 months. In some 
years we get a million out and some years we can get a little 
more out, but it's not really significant.
    And in this year, just on where the runoff came from and 
how fast, it really would not have made a difference in our 
system releases, as we got that--you know, but up until March 
15th, the plains' snowpack, although we had pockets of very 
heavy snow, we didn't really have overall an above average 
plains' snowpack.
    The bomb cyclone dumped another 2 to 4 inches of water over 
most of South Dakota and most of southern North Dakota, which 
by that time it was, you know, we were in a reactionary mode.
    Senator Rounds. Well----
    Mr. Remus. I'd actually read--so, was there something in 
the Master Manual? We can look at that and release more water. 
If we're going to start, you know, doing a trends analysis and 
not operating on an annual cycle, that would require a change 
to the Water Control Plan.
    Senator Rounds. But on an annual cycle, you could look at 
where the trends are moving.
    Mr. Remus. We could look at what our runoff forecast is, 
and if we have a wet Basin, we generally predict more water, 
and we can release more if we can get it out under the ice.
    Senator Rounds. I think I should stop while I'm ahead. 
Look, that's what I'm looking for. I just think that when we're 
trending this and there's an average and then there's a trend. 
And I think if we're averaging it over the life cycle of this 
system, what we're finding is, is that we go either wet or we 
go dry, but we don't seem to take into account that we're wet 
and we're in a wet cycle versus dry and we're in a dry cycle. 
And I just think that's worthwhile in looking at the trending 
that's the capability now with the new abilities that we're 
going to have, to be able to look at what our snowpacks are and 
so forth.
    And I understand that the ice does play a role in it, but 
it appears to me that we actually were able to increase by 
several thousand cubic feet per second beginning fairly early 
in the year for this year. And we were in touch with your 
office on March 8th, March 20th, March 28th, and April 10th of 
this year suggesting that we get those up faster than what we 
did.

[[Page 22]]

    Mr. Remus. And we did that this year and last year----
    Senator Rounds. Yes.
    Mr. Remus [continuing]. When we saw that we--the storage 
check gives us--basically, it sets targets downstream in Omaha, 
Nebraska City, and Kansas City, and there's a floor and a 
ceiling to those. And we can manage to the minimum, or we can 
manage to the maximum. We always try to manage, or at least 
last year and this year, to get to that maximum.
    So, we knew we were going to have an above average. We 
didn't know it was going to be 53 million acre-feet, but we did 
know that, and we released toward the top of that ceiling early 
on as much as we could. But we did have a lot of constraints 
downstream.
    Senator Rounds. Very good.
    Gentlemen, is there anything that we have not touched on 
that you wanted to address today?
    General Helmlinger. Senator, I would just say that I 
appreciate the support from Congress and from our non-Federal 
sponsors, that as we work together to restore the levees here.
    One thing we will need in the future is sufficient 
appropriation to continue our restoration work, our phase two 
effort.
    And then, perhaps more importantly, is our long term phase 
three that we need continued support from all of our non-
Federal sponsors, as well as Congress, to implement our Lower 
Basin flood risk management study, with the understanding that 
we're focusing just on the Lower Basin and its tributaries, so 
that we can improve the capacity or conveyance of water through 
that because it's clear now, as was demonstrated, that we have 
insufficient capacity to carry water safely through the Lower 
Missouri River.
    Senator Rounds. And John.
    Mr. Remus. I just want to thank you for allowing us to come 
here today. And thank you for your engagement in our Basin 
operations.
    Senator Rounds. I think there are days you don't appreciate 
that engagement.
    [Laughter.]
    Mr. Remus. No, and I--no, I do. I want to thank you. I 
don't think I got a chance to thank you for bringing a meeting 
in Pierre, and getting it rescheduled, and getting us a place. 
I want to thank you for that because the weather kind of 
prevented that. But you and your staff really helped us out 
there, so thank you.
    Senator Rounds. Thank you.
    And General Helmlinger, I know that as you folks work 
through the Chairs and you, you know, coming in and out, you 
rely on the folks that are there doing the day-to-day work, 
such as John is doing and--
    John, how many years have you been working now with the 
Corps of Engineers doing this type of work?
    Mr. Remus. I've been working for the Corps of Engineers 34 
years, but I just had my second anniversary in this particular 
job.
    Senator Rounds. Yes. But before that, you were working in 
Omaha doing----
    Mr. Remus. Water resources engineering in the Missouri 
River Basin.

[[Page 23]]

    Senator Rounds. It takes a while to get to the point of 
being able to do it. I presume you've already got other people 
that you're beginning to train to work through this process as 
well.
    Mr. Remus. Are you hinting at something?
    Senator Rounds. No, not yet.
    [Laughter.]
    Senator Rounds. It's just when you guys come in as rookies, 
it takes us some time to get you up to speed. That's all.
    Mr. Remus. I have a very good staff, yes.
    Senator Rounds. Very good.
    Look, thank you. And once again, I said this earlier, and I 
mean it, you are neighbors and friends, and you live with this 
river as well. And it is appreciated, the work that you do, 
even in times in which sometimes you don't have all the tools 
necessary to be able to protect all the property and the 
livelihoods down here that you want to. And part of our 
responsibility is to make sure that you have as many of those 
tools available to you as we can possibly get to you and that 
the management tools are also available to you as well.
    Now, if there are no more questions or comments that we 
want to make today--and I do not have the other members with me 
today. Other members may very well want to submit questions for 
the record, and that will be allowed for the next 2 weeks as 
well.
    I want to thank General Helmlinger, and Mr. Remus, and the 
Corps of Engineers for traveling and taking part in this 
hearing and for their hard work and dedication in managing the 
Missouri River Basin. Your thoughtful participation in this 
conversation as to how we can improve the management of the 
system is an important step to protecting homes and businesses 
and communities along the Missouri River.
    Again, I want to thank everybody for your time today and 
for traveling to South Dakota to take part in this hearing.
    And with that, this hearing is closed.
    [Whereas, at 3:15 p.m., the hearing was adjourned.]
    [Additional material submitted for the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
                                 <all>
</pre></body></html>
